<html>
<title> - OVERSIGHT HEARING: THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 114-34]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 114-34

OVERSIGHT HEARING: THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR 
                                  THE
                     NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________

                        U.S. GOVERNMENT PUBLISHING OFFICE 

94-992 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 15, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................   242
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont, 
  prepared statement.............................................   242

                               WITNESSES

Burns, Stephen G., Chairman, Nuclear Regulatory Commission.......     8
    Prepared statement...........................................    10
    Responses to additional questions from Senator Inhofe........    23
    Response to an additional question from Senator Capito 



    Responses to additional questions from:
        Senator Fischer..........................................    77
        Senator Gillibrand.......................................    88
    Response to an additional question from Senator Sessions.....    93
    Responses to additional questions from:
        Senator Boxer............................................   104
        Senator Sanders..........................................   107

Svinicki, Kristine L., Commissioner, Nuclear Regulatory 
  Commission.....................................................   114
    Response to an additional question from Senator Capito.......   115
    Responses to additional questions from Senator Sanders.......   116

Ostendorff, William C., Commissioner, Nuclear Regulatory 
  Commission.....................................................   121
    Response to an additional question from Senator Capito.......   122
    Responses to additional questions from Senator Sanders.......   123

Baran, Jeff, Commissioner, Nuclear Regulatory Commission.........   137
    Response to an additional question from Senator Capito.......   138
    Responses to additional questions from Senator Sanders.......   139

 
OVERSIGHT HEARING: THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR 
                   THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room 406, Dirksen Senate Building, Hon. James Inhofe (chairman 
of the committee) presiding.
    Present: Senators Inhofe, Boxer, Barrasso, Capito, Crapo, 
Fischer, Sullivan, Carper, Gillibrand, and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order.
    We are holding this hearing to review the Nuclear 
Regulatory Commission's budget proposal for fiscal year 2016.
    I would like to welcome Chairman Burns and the rest of you 
we have worked with in the past. It is nice to have you back. 
We are going to start getting active here.
    We will continue with the committee's practice of 5-minute 
opening statements from Chairman Burns and 2 minutes for each 
of the others. Then we will start our questions. It looks like 
we will have pretty good attendance.
    The NRC's mission is a vital one and must be adequately 
funded. I want our nuclear plants to be safe and they are safe, 
in spite of some of the things you might hear to the contrary.
    However, resources are not unlimited. As the size of our 
nuclear industry shrinks, the NRC must recognize that it can 
accomplish its mission with fewer resources. In fact, it has 
done so in the past.
    I conducted my first oversight hearing as Chairman of the 
Nuclear Safety Subcommittee in 1998. In 1998, this Commission 
had gone 4 years without any oversight. We changed that and 
started having 6-month reports. You are all very familiar with 
that. We go back a long ways on this.
    In my opening statement, I am going to mention some things 
that no one is going to understand what I am saying except you 
at the table. You are very familiar with that and if you pay 
attention, I have a little challenge afterwards.
    In 1997, we had 104 reactors operating in the U.S. and the 
NRC executed its safety mission with a budget of $477 million 
and 3,000 employees. Since then, we experienced the tragedy of 
September 11th and NRC expanded its efforts on security. A few 
years later, our Country seemed poised to experience a nuclear 
renaissance, which we were all very excited about, at least I 
was, and the NRC expanded to review a surge of applications for 
31 new reactors.
    Ten years ago, the NRC had a budget of $669 million and 
3,108 employees to oversee 104 reactors and review 1,500 
licensing actions. For fiscal year 2016, the NRC is requesting 
a budget of $1.032 billion and 3,754 employees to oversee 100 
reactors and review 900 licensing actions.
    After an increase of $363 million and 646 employees, the 
NRC is struggling with a backlog to review 40 percent fewer 
licensing actions. In 2005, the NRC reviewed 16 license renewal 
applications. In 2016, it plans to review nine.
    In 2005, the NRC budgeted $69 million for preparing to 
review the Yucca Mountain application. We all remember that. 
For fiscal year 2016, the NRC has not requested any funding. In 
2005, the NRC oversaw 4,400 nuclear materials licensees versus 
only 2,000 in 2016.
    What we have seen over time is an agency that has grown in 
spite of a decreasing workload and now, unfortunately, a 
shrinking industry, something we hope to reverse and turn 
around.
    These numbers tell us that the NRC has, in the past, 
accomplished more work with fewer resources. Last year, the 
Commission recognized the need to ``right-size'' the agency and 
instituted Project Aim 2020. Project Aim's recommendations 
include reducing the NRC's budget, and staffing levels 10 
percent by 2020.
    It is a nice start, but the NRC has performed far more 
efficiently in the past. I have seen the NRC accomplish more 
with less so I know it can do better. I do not think there is 
any reason to delay making changes to the agency's size and 
numbers until 2020. Certainly, the 2016 budget heads in the 
wrong direction.
    Ninety percent of the NRC's budget is collected by fees 
recovered from its licensees. A lot of times that is used, 
saying these are not public dollars but it is the hardworking 
families who ultimately pay these costs in their electricity 
bills. They deserve prompt action to address the imbalances 
between your declining workload and the budget you have 
requested.
    It is incumbent upon the NRC to ensure that these funds are 
used prudently and focused on achieving genuine safety 
benefits. I will have some specific questions to ask you along 
that line.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    We are holding this hearing to review the Nuclear 
Regulatory Commission's budget proposal for fiscal year 2016. 
I'd like to begin by welcoming the commissioners and Mr. Burns 
who is testifying before us for the first time in his new role 
as chairman.
    We will continue with the Committee's practice of a 5-
minute opening statement from Chairman Burns and 2 minutes for 
each of the commissioners.
    The NRC's mission is a vital one and must be adequately 
funded. I want our nuclear plants to be safe and they are safe.
    However, resources are not unlimited. As the size of our 
nuclear industry shrinks, the NRC must recognize that it can 
accomplish its mission with fewer resources. In fact, it has 
done so in the past.
    When I conducted my first oversight hearing as chair of the 
nuclear safety subcommittee in 1998, over 4 years had passed 
since the Committee had last conducted an oversight hearing 
with the NRC.
    In 1997, we had 104 reactors operating in the U.S. and the 
NRC executed its safety mission with a budget of $477 million 
and 3,000 employees.
    Since then, we experienced the tragedy of September 11th 
and NRC expanded its efforts on security. A few years later, 
our country seemed poised to experience a nuclear renaissance 
and the NRC expanded to review a surge of applications for 31 
new reactors.
    Ten years ago, the NRC had a budget of $669 million and 
3,108 employees to oversee 104 reactors and review 1,500 
licensing actions.
    For fiscal year 2016, the NRC is requesting a budget of 
$1.032 billion and 3,754 employees to oversee 100 reactors and 
review 900 licensing actions.
    After an increase of $363 million and 646 employees, the 
NRC is struggling with a backlog to review 40 percent fewer 
licensing actions.
    In 2005, the NRC reviewed 16 license renewal applications. 
In 2016, it plans to review nine.
    In 2005, the NRC budgeted $69 million for preparing to 
review the Yucca Mountain application. For fiscal year 2016, 
the NRC hasn't requested any funding.
    In 2005, the NRC oversaw 4,400 nuclear materials licensees 
versus only 2,000 in 2016.
    What we have seen over time is an agency that has grown in 
spite of a decreasing workload and now, unfortunately, a 
shrinking industry.
    What these numbers tell us is that the NRC has, in the 
past, accomplished more work with fewer resources.
    Last year, the Commission recognized the need to ``right-
size'' the agency and instituted Project Aim 2020. Project 
Aim's recommendations include reducing the NRC's budget and 
staffing levels 10 percent by 2020.
    It is a nice start, but the NRC has performed far more 
efficiently in the past. I've seen the NRC accomplish more with 
less so I know it can do better.
    I don't think there's any reason to delay making changes to 
the agency's size and numbers until 2020. Certainly, the 2016 
budget heads in the wrong direction.
    Ninety percent of the NRC's budget is collected by fees 
recovered from its licensees. However, it is hardworking 
families who ultimately pay these costs in their electricity 
bills. They deserve prompt action to address the imbalances 
between your declining workload and the budget you have 
requested.
    It is incumbent upon the NRC to ensure that these funds are 
used prudently and focused on achieving genuine safety 
benefits.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman.
    I welcome everyone.
    Today, EPW is holding a hearing on the budget request for 
the Nuclear Regulatory Commission and also oversight and some 
management issues.
    When I was chairman, we held 11 oversight hearings which 
were very important and informative, although I do not think 
they led to the action that we really have needed post-
Fukushima which I will talk about. I do believe, as a result of 
those oversight hearings, this Commission has a new face. I am 
grateful for that.
    Among the management issues I wish to explore today are the 
slow pace at which the NRC is implementing measures intended to 
protect American nuclear plants in the wake of the earthquake, 
tsunami, and nuclear meltdowns in Japan in March 2011. The 
reason I think it is so critical is I believe if you want a 
future for nuclear power, you have to have confidence or people 
are not going to allow it. I see this happening in my State 
because people are very worried. I will get to that in a 
minute.
    I want to know today, you have not done really anything 
since Fukushima as far as I can tell. We do not really see any 
of the recommendations that came out being completely taken 
care of. I believe there were 12, were there not?
    Senator Inhofe. I think we have 35.
    Senator Boxer. Here are the ones, 12, that I am talking 
about. Maybe there were 35 but the top 12 here--no, no, no, 
nothing has been done. I want to know today is it because you 
do not have enough money, you do not have agreement or what is 
the story there? I am going to ask you that question.
    Let me talk about what has happened in Japan. Here are the 
facts. Tens of thousands of refugees still remain barred from 
their former homes. There remains no solution for how to 
dispose of the massive volumes of radioactive waste 
accumulating at the plant.
    Recently, the chief of the Fukushima power plant admitted 
that the decommissioning process could take--listen to this, 
Mr. Chairman--200 years and they had no idea what the 
conditions were inside the reactors because they are still too 
radioactive to examine. The technology needed to do the job 
does not even exist.
    Just yesterday, a court in Japan sided with residents 
concerned about seismic safety when it prevented the restart of 
two Japanese reactors that have been shut down since the 
Fukushima disaster.
    I believe the only way the nuclear industry can remain a 
vibrant part of our energy mix is if it has the confidence of 
the public. I said that at the opening of my statement and I 
want to say it again.
    We have to learn from Fukushima and do everything we can to 
avoid having something similar happen here. The sad reality, 
again, is that not one of these 12 safety recommendations made 
by your own task force has been implemented.
    Some reactor operators are still not in compliance with the 
safety requirements that were in place before Fukushima. The 
NRC has only completed its own action on four of the 12 
recommendations. You have completed your own action but the 
industry has not completed any.
    I remain concerned that you are not living up to your 
mission which is ``to ensure the safe use of radioactive 
materials for beneficial civilian purposes while protecting 
people and the environment.'' That is your charge.
    If we look at California's Diablo Canyon Power Plant to see 
that the NRC has failed to live up to its mission. I would like 
to place in the record a news article that appeared in the San 
Francisco Chronicle on March 7, 2015, entitled: ``PG&E 
Overlooked Key Seismic Test at Diablo Canyon Nuclear Plant.''
    Senator Inhofe. Without objection.
    [The referenced information follows:]

             [The San Francisco Chronicle, March 12, 2015]

    PG&E Overlooked Key Seismic Test at Diablo Canyon Nuclear Plant

                          (By David R. Baker)

    Pacific Gas and Electric Co. replaced $842 million of equipment at 
the heart of the Diablo Canyon nuclear plant without first making sure 
the new gear could pass a vital seismic safety test required in the 
facility's license, The Chronicle has learned.
    Starting in 2008, PG&E swapped out the plant's old steam generators 
and reactor vessel heads without evaluating whether the replacements 
could withstand a major earthquake on the Hosgri Fault--just 3 miles 
away--and a simultaneous loss of cooling water within the reactors. 
Instead, PG&E evaluated each scenario--the earthquake and the loss of 
coolant--separately, even though Diablo's license requires that the two 
be considered together. A severe quake, after all, could rupture pipes 
connected to the reactor vessels and cause the water to drain, 
potentially leading to a meltdown.
    PG&E spotted the mistake in 2011, a year after the last replacement 
equipment was installed at Diablo Canyon, perched on a seaside cliff 
near San Luis Obispo. The utility insists that its own analysis, 
performed after the company found the mistake, shows the new equipment 
would survive an earthquake and loss of coolant after all.
    ``Engineering and seismic experts performed a subsequent evaluation 
and confirmed there is sufficient margin in the components' design to 
withstand a very rare event of a combined earthquake on the Hosgri 
Fault and a loss of coolant accident,'' said PG&E spokesman Blair 
Jones. He called the possibility of such an event ``infinitesimally 
small.''
    That doesn't comfort Diablo Canyon's critics, who have often 
accused PG&E of overstating the plant's strength and underestimating 
the seismic threats it faces. Earthquake safety has been a concern at 
the plant ever since the Hosgri Fault was discovered in 1971, 3 years 
after construction at Diablo began. Another fault that passes within 
2,000 feet of the reactors, the Shoreline Fault, was found in 2008, 
after the plant had been operating for two decades.
                       ``same mistake'' in japan
    ``I'm frightened that they're making almost the exact same mistake 
we saw at Fukushima,'' said Daniel Hirsch. a lecturer in nuclear policy 
at UC Santa Cruz.
    The 2011 meltdown of three reactors at Japan's Fukushima Dai-ichi 
nuclear plant happened after an earthquake triggered a tsunami that 
swamped the plant, knocked out its power systems and led to a loss of 
coolant. The crippled plant still leaks radiation into the sea.
    ``There was a too-cozy relationship between the nuclear industry 
and regulators in Japan, and that led to the fiction that it was very 
unlikely that you'd have an earthquake and a tsunami and a loss-of-
coolant accident at the same time,'' said Hirsch, who also serves as 
president of Committee to Bridge the Gap, a grassroots nuclear safety 
group.
    The error comes to light as environmentalists, who tried to block 
Diablo's opening decades ago, are pushing hard to close the facility.
    California's only other nuclear plant, the San Onofre Nuclear 
Generating Station, shut down in 2013 after a small leak of radioactive 
steam revealed serious problems with the station's own replacement 
steam generators, which had a different design than the original 
equipment. That doesn't appear to be an issue with Diablo Canyon, whose 
new steam generators feature the same basic design as their 
predecessors. But San Onofre's closure emboldened antinuclear 
activists.
    ``If key safety equipment has been installed using the wrong data, 
(Diablo Canyon) needs to be shut down, and we need a public, 
transparent investigation into the adequacy of the license and the 
safety of this plant,'' said Damon Moglen. senior adviser to the 
Friends of the Earth environmental group.
                        critics blast regulators
    The plant's government regulators are a big part of the problem, 
critics allege.
    The U.S. Nuclear Regulatory Commission, which oversees the nation's 
nuclear plants, should have caught PG&E's mistake before the new steam 
generators and vessel heads were installed, they say. Instead, the 
commission learned about the error from PG&E, reviewed the company's 
after-the-fact seismic assessment and agreed that the plant was safe. 
No fines or violation notices were issued.
    Meanwhile, the California Public Utilities Commission, which gave 
PG&E permission to spend its customers' money on the replacement 
equipment, didn't know about the missed seismic test until told about 
it by a Chronicle reporter, a PUC spokesman confirmed. And since the 
Nuclear Regulatory Commission--not the state--is supposed to regulate 
nuclear plant safety, knowledge of the error would not have affected 
the PUC's decision, said spokesman Christopher Chow.
    ``This matter is within the jurisdiction of the NRC and not the 
CPUC,'' he said.
    Friends of the Earth last year filed a lawsuit claiming the Nuclear 
Regulatory Commission illegally allowed PG&E to amend the seismic 
safety portion of its license without public hearings. The move came 
after one of the commission's own former inspectors at Diablo Canyon 
argued that the plant was no longer operating within the terms of its 
license and should be shut down until PG&E demonstrated it could 
withstand earthquakes from several recently discovered fault lines, 
including the Shoreline. The commission rejected that idea.
    ``This is a regulator who's not prepared to regulate and didn't 
come down on a key safety issue,'' Moglen said. ``It's a regulator 
who's looking the other way.''
    Earthquake fears have dogged Diablo Canyon throughout its history.
    PG&E decided to locate a nuclear facility on the Central Coast 
after excavation for another proposed plant--at Bodega Bay, in Sonoma 
County--uncovered a fault line running through the site. When federal 
authorities approved construction of Diablo Canyon's first reactor, in 
1968, the company said there were no active faults within 30 
kilometers, or 18.6 miles, according to Hirsch.
    Then oil company geologists reported finding the Hosgri, just 
offshore. The U.S. Geological Service estimated the fault could produce 
a magnitude 7.5 earthquake. It was just the first of several faults to 
be found in the nearby hills and seabed.
    ``With every study, we're finding that the seismic threat is larger 
than previously understood,'' said former State Sen, and Assemblyman 
Sam Blakeslee. who has a degree in geophysics and pushed for more 
earthquake studies at Diablo Canyon while in office. ``It's remarkable 
that the facility was put here at all.''
                            fault discovered
    Hosgri's discovery in 1971 hardened public opposition to the plant 
and turned Diablo into a rallying point for America's nascent 
environmental movement. It also prompted regulators to require seismic 
retrofits to the plant before it could open. The work didn't go well. 
In 1981, PG&E discovered that some of the new seismic support 
structures had been built backward, in a mirror image of the way they 
were supposed to be.
    Diablo Canyon finally opened in 1985. Its cost had spiraled from 
roughly $320 million to $5.8 billion.
    Despite the price, California came to rely on Diablo Canyon. In 
2011, for example, the plant's twin reactors supplied about 7 percent 
of the state's electricity, all without pumping greenhouse gases into 
the atmosphere. State officials worried about climate change saw it as 
a major asset.
    The new steam generators were designed to keep that asset running 
smoothly. The generators convert heat from the reactors into steam that 
turns turbines to produce electricity. And over time, they wear out. 
Without replacements, PG&E told the state's utilities commission in 
2005, the entire plant would have to close by 2014. The generators were 
replaced in 2008 and 2009 for roughly $700 million, a cost passed on to 
PG&E's customers.
    The vessel heads--which cap each reactor and keep radiation from 
escaping--were replaced in 2010 and cost $142 million.
    That same year, PG&E began an internal effort to examine all the 
plant's systems and ensure that the right safety analyses had been 
performed for each. Owners of other nuclear plants built during the 
same era as Diablo Canyon had already performed similar evaluations, 
some of them as far back as the 1990s. PG&E's effort, called the 
License Basis Verification Program, turned up the missed seismic test 
for new steam generators and vessel heads in May 2011.
    The utility told the Nuclear Regulatory Commission about the 
mistake. PG&E conducted an assessment of the gear, all of it installed 
and in operation for several years at this point, and concluded it 
would meet the plant's seismic safety requirements.
                           nrc oks assessment
    That satisfied the commission. Although PG&E is still finishing a 
final safety analysis for the equipment, the commission has reviewed 
PG&E's work and has raised no issues with it, said commission 
spokeswoman Lara Uselding. Nor has PG&E reported finding the same kind 
of mistake with any other equipment at the plant so far, she said.
    The mistake remained out of public view, however, until last fall, 
when California Sen. Barbara Boxer started delving into seismic issues 
at the plant. In November, a commission official confirmed the mistake 
to a staff member of the Senate's Environment and Public Works 
Committee. Boxer alluded to it during a committee hearing in December 
on nuclear plant safety, in which she criticized the Nuclear Regulatory 
Commission's oversight of Diablo Canyon.
    ``Approximately 500,000 people live and work near this power plant, 
and it is my responsibility and yours to protect them,'' she told 
commission officials at the hearing.
    Critics remain unconvinced by PG&E's--and the NRC's--assurances 
that the new steam generators and vessel heads are safe.
    ``What really worries me is that PG&E is doing with Diablo what it 
did with San Bruno,'' Hirsch said, pointing to the deadly 2010 
explosion of a PG&E gas pipeline beneath the Bay Area city. ``It's 
cutting safety corners and relying on the capture of its regulators to 
get through.''

    Senator Boxer. Thank you.
    While the Fukushima Task Force recommended that all 
reactors be protected against the strongest earthquakes they 
were likely to face, the NRC seems to have gone out of its way 
to do the exact opposite.
    Even after learning of newly discovered strong earthquake 
faults close to the power plant, the NRC dismissed its senior 
inspector's recommendation that the reactor be shut down if it 
did not come back into compliance with its own license, its own 
seismic licensing requirements. I am going to get into this as 
we get into the questions.
    The fact is I represent a lot of people and a lot of people 
live around these plants. San Onofre had to shut down. NRC did 
not do what they should have done there and I am very fearful 
we are looking at the same thing in Diablo. I will question you 
on that.
    Please let me know during your testimony whether you have 
enough money to do the job you are supposed to do or are you 
misusing it or using it on wrong things. I do not know. I need 
to hear, because this is a horrible record that after all these 
years, nothing of your own task force is happening on the 
ground now that you recommended--that they recommended.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    Today, the Environment and Public Works Committee is 
holding a hearing on the budget request for the Nuclear 
Regulatory Commission (NRC), fee recovery, and management 
issues.
    Among the management issues I wish to explore today is the 
slow pace at which the NRC is implementing measures intended to 
protect American nuclear plants in the wake of the earthquake, 
tsunami, and nuclear meltdowns in Japan in March 2011. I'd be 
interested in the Commission's views about the reason for this 
slow pace, including budgetary constraints.
    I welcome the new NRC Chairman, Steve Burns, as well as our 
other new Commissioner, Jeff Baran, to the Committee. It has 
been more than 4 years since the Fukushima disaster, and Japan 
has not been able to make sufficient progress in its clean up 
efforts. Tens of thousands of refugees still remain barred from 
their former homes, and there remains no solution for how to 
dispose of the massive volumes of radioactive water 
accumulating at the plant.
    Recently, the chief of the Fukushima power plant admitted 
that the decommissioning process could take 200 years, that 
they had no idea what the conditions inside the reactors are 
because they are still too radioactive to examine, and that the 
technology needed to do the job does not even exist.
    Just yesterday, a court in Japan sided with residents 
concerned about seismic safety when it prevented the re-start 
of two Japanese reactors that have been shut down since the 
Fukushima disaster.
    The only way that nuclear energy can remain a vibrant part 
of our energy mix is if it has the confidence of the public. I 
have been saying for 4 years that in order to earn that 
confidence, we must learn from the Fukushima disaster and do 
everything we can to avoid something similar happening here in 
the U.S. Unfortunately, the reality is that not a single one of 
the 12 key safety recommendations made by the Fukushima Near-
Term Task Force has been implemented at nuclear reactors in 
this country.
    Some reactor operators are still not in compliance with the 
safety requirements that were in place before the Fukushima 
disaster happened. The NRC has only completed its own action on 
4 of the 12 Task Force recommendations.
    I remain concerned that the Commission is not doing all 
that it can to live up to the NRC's mission ``to ensure the 
safe use of radioactive materials for beneficial civilian 
purposes while protecting people and the environment.''
    We need look no further than California's Diablo Canyon 
Power Plant to see that the NRC has failed to live up to its 
mission. I would like to place in the record a news article 
that appeared in the San Francisco Chronicle on March 7, 2015, 
entitled: ``PG&E overlooked key seismic test at Diablo Canyon 
nuclear plant.''
    While the NRC's Fukushima Task Force recommended that all 
reactors be protected against the strongest earthquakes they 
were likely to face, the NRC seems to have gone out of its way 
to do the exact opposite at Diablo Canyon.
    Even after learning of newly discovered strong earthquake 
faults close to the power plant, the NRC dismissed its senior 
inspector's recommendation that the reactor be shut down if it 
did not come back into compliance with its seismic licensing 
requirements.
    Even after NRC learned that PG&E, which owns and operates 
Diablo Canyon, repeatedly failed to properly analyze earthquake 
risks when it replaced its steam generators and other major 
reactor equipment, NRC has not acted aggressively to enforce 
its own safety regulations.
    And even when PG&E's own seismic analysis found an even 
more severe earthquake risk than was previously known, NRC 
still pronounced the reactor to be safe without even taking the 
time it needed to analyze these newly disclosed risks. In fact, 
I have learned that NRC drafted its press materials saying that 
its review of PG&E's seismic study said that the plant remained 
``safe to operate'' weeks before PG&E even submitted the study 
to NRC in the first place.
    I plan to raise these and other issues with you today, 
including the Commission's continued failure to provide me with 
documents I have requested.

    Senator Inhofe. Thank you, Senator Boxer.
    Mr. Burns, this is the first time you have appeared before 
this committee as chairman. You are recognized.

  STATEMENT OF STEPHEN G. BURNS, CHAIRMAN, NUCLEAR REGULATORY 
                           COMMISSION

    Chairman Burns. Thank you, Senator. Good morning, Chairman 
Inhofe, Ranking Member Boxer and distinguished members of the 
committee.
    My colleagues and I appreciate the opportunity to appear 
before you today to discuss the NRC's fiscal year 2016 budget 
request and the agency's current activities.
    The proposed budget for 2016 reflects the NRC's 
responsiveness to the environment in which we find ourselves. 
Continuing with trends that began in fiscal 2014, the 2016 
request reflects a reduction in both dollars and full-time 
equivalent staff from budget proposals in recent years, but 
still will provide the necessary resources to carry out the 
agency's mission to protect the public health and safety, 
common defense and security.
    The proposed fiscal 2015 fee rule, which was published just 
recently on March 23 for public comment, is also expected to 
reflect a reduction in operating reactor fees from the proposed 
rule.
    Ensuring timely implementation of safety enhancements at 
nuclear power plants as a result of the lessons learned from 
the accident at the Fukushima Daiichi plant in Japan continues 
to be a priority for the agency and will be in fiscal 2016.
    The NRC and the industry continue to make substantial 
progress in implementing safety enhancements and the primary 
focus throughout this effort is beyond the implementation of 
the highest priority, most safety significant enhancements to 
maximize the safety benefit at nuclear power plants.
    The NRC expects that most licensees will complete 
implementation of the majority of the most safety significant 
enhancements by or before 2016. These include safety 
enhancements in the following areas: mitigation strategies, 
spent fuel pool instrumentation, flooding and seismic 
reevaluations and interim actions, enhancements to emergency 
preparedness communications and staffing.
    Last year, the first plants completed implementation of the 
2012 Mitigation Strategies Order which requires sites to be 
prepared to respond to beyond design basis events. More than 
half the plants are scheduled to achieve full implementation by 
the end of 2015 and the remaining, with limited exception, will 
complete the necessary actions in 2016.
    Also, in the past year, both of the industry's National 
Response Centers in Phoenix, Arizona and Memphis, Tennessee 
became operational. Both centers contain multiple sets of 
emergency diesel generators, pumps, hoses and other backup 
equipment that can be delivered to any nuclear power plant in 
the United States within 24 hours.
    From a broader perspective of NRC activities, we 
acknowledge that we are operating in a changing environment. 
Since 2001, the agency grew significantly to prepare for the 
projected growth in the use of nuclear power in the United 
States. That has not materialized, as Chairman Inhofe noted, to 
respond to the security aspects of the 9/11 terrorist attacks.
    To address our changing environment, the agency launched 
Project Aim 2020 last summer to enhance the agency's ability to 
plan and execute its mission, while adapting in a timely and 
effective manner to a dynamic environment.
    The NRC staff recommended to the Commission a number of 
measures designed to transform the agency over the next 5 years 
to improve our effectiveness, efficiency and agility. We are 
currently considering the staff recommendations as a commission 
and are taking a hard look at how to ensure the agency 
maintains the ability to perform its critical safety and 
security mission while being more efficient.
    Although the NRC recognizes the need for change, we are 
also keenly aware that major organizational change, if not done 
wisely, can have a detrimental effect on the agency's mission 
and on the morale of its employees.
    We have a critical mission and some of the most talented, 
dedicated and knowledgeable employees in the Federal 
Government. The Commission's priority must always be focused 
foremost on its safety and security mission, but in doing so, 
the Commission is cognizant of its changing environment and is 
committed to taking a hard look at itself to ensure that it is 
prepared for its future.
    On behalf of the Commission, I thank you again for the 
opportunity to appear before you today. I look forward to 
continuing to work with you to advance our important safety and 
security mission.
    I would be pleased to respond to any questions you may 
have. Thank you.
    [The prepared statement of Chairman Burns follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
     
    Senator Inhofe. Thank you very much, Mr. Chairman.
    Ms. Svinicki. Try to keep within our time limit if you 
would, please.

   STATEMENT OF KRISTINE L. SVINICKI, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Inhofe, Ranking Member 
Boxer and distinguished members of the committee for the 
opportunity to appear before you today.
    The Commission's Chairman, Stephen Burns, in his statement 
on behalf of the Commission has provided an overview of the 
agency's budget request as well as a description of some of the 
key agency accomplishments and challenges in carrying out the 
NRC's important work of protecting public health and safety and 
promoting the common defense and security of our Nation.
    The NRC continues to implement safety significant lessons 
learned from the Fukushima accident in accordance with agency 
processes, while also maintaining our focus on ensuring the 
safe operation of nuclear facilities and the safe use of 
nuclear materials.
    The current period of implementation of Fukushima-related 
Tier 1 regulatory actions will require focus from the NRC staff 
as they review and process an extremely high volume of 
regulatory submittals and inspect the implementation of these 
requirements at licensee sites.
    At the same time, the agency will be carrying out a set of 
complex rulemaking activities. In short, demanding work 
continues before us.
    Concurrent with this, the NRC is taking the initiative to 
improve agency budget formulation, budget implementation and 
program execution; in other words, an effort to sharpen our 
delivery of the basics.
    This is truly a homegrown initiative involving the efforts 
and feedback of many hundreds of individual NRC employees who 
have demonstrated strong ownership of its core elements. These 
elements are: right-sizing the agency, streamlining agency 
processes to use resources more wisely, improving timeliness 
and decisionmaking and promoting a more unified agency purpose 
through agencywide priority setting.
    We look forward to reflecting progress on these fronts in 
future budget submittals. I appreciate the opportunity to 
appear today and look forward to your questions. Thank you.
    [Questions for the record and Ms. Svinicki's responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Inhofe. Thank you, Ms. Svinicki.
    Commissioner Ostendorff.

   STATEMENT OF WILLIAM C. OSTENDORFF, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Ostendorff. Good morning, Chairman Inhofe, Ranking 
Member Boxer and distinguished members of the committee.
    The Chairman has already provided an overview of the NRC's 
budget, the changing environment and steps we are taking to 
improve the operations of the NRC through Project Aim. I am in 
complete alignment with his testimony.
    Looking back over the actions the NRC has taken over the 
past 4 years as a result of Fukushima lessons learned, I firmly 
believe that the agency has acted on a foundational basis of 
solid science and engineering.
    We have appropriately given highest priority to the Tier 1 
items associated with the greatest safety significance. I am 
confident in the NRC's safety actions post-Fukushima and 
believe we have made very substantial progress.
    In closing, I appreciate the opportunity to testify today 
and look forward to your questions.
    Thank you.
    [Questions for the record and Mr. Ostendorff's responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, sir.
    Commissioner Baran.

   STATEMENT OF JEFF BARAN, COMMISSIONER, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Baran. Chairman Inhofe, Ranking Member Boxer and 
members of the committee, thank you for the opportunity to 
appear today before the committee.
    It is a pleasure to be here with my colleagues to discuss 
NRC's fiscal year 2016 budget request and the work of the 
agency.
    First and foremost, NRC is focused on our mission of 
protecting public health and safety, yet the agency faces a 
different environment than what was expected just a few years 
ago. To meet our responsibilities now and into the future, we 
need to enhance the efficiency, effectiveness and agility of 
the agency.
    Before I joined the Commission, my colleagues had the 
foresight to initiate Project Aim, an internal working group 
tasked with looking at changes NRC should make to prepare for 
the future. This is a valuable and timely effort.
    We are actively deliberating on the recommendations of the 
Project Aim team and I expect that the Commission will approve 
some prudent actions very soon.
    While we work to increase the agency's efficiency and 
agility, we need to ensure that NRC also maintains its focus on 
its ongoing safety work. Currently, five new reactors are being 
built in the United States and five reactors recently ceased 
operations and are entering decommissioning.
    At the construction sites, NRC is conducting oversight to 
ensure that the new plants are built safely and in accordance 
with regulatory requirements. Meanwhile, the NRC staff is 
beginning a rulemaking to take a fresh look at a number of 
decommissioning issues.
    NRC is continuing to address post-Fukushima safety 
enhancements and lessons learned. Progress has been made in 
several areas but we recognize that more work remains to be 
done.
    The effort to address flooding hazards at nuclear power 
plants is a good example. The flooding hazard reevaluations 
have been proceeding more slowly than anticipated. The 
Commission recently decided to make some improvements to the 
process in order to accelerate the analysis while providing 
more clarity to licensees about the process for determining 
what additional equipment or modifications may be necessary to 
protect nuclear plants from floods.
    In closing, I recognize that our congressional oversight 
committees are more interested than ever in NRC's mission and 
the way we are carrying out that mission. I firmly believe that 
NRC can provide Congress with the information it needs to 
perform its oversight duties while preserving the independence 
essential to accomplishing our safety and security mission.
    Thank you and I look forward to your questions.
    [Questions for the record and Mr. Baran's responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Inhofe. Thank you very much.
    I am going to make an observation and ask if each of you 
disagree. The notion that the NRC has done nothing in response 
to Fukushima just isn't true.
    I understand the NRC has responded to congressional 
questions. I have seen the list. There have been as many as 35 
post-Fukushima recommendations. The most safety significant of 
these either has been implemented already or will be 
implemented by the end of the year.
    I understand the industry expects to spend approximately $4 
billion on post-Fukushima safety requirements. Clearly, we have 
been very busy.
    I would also observe that Japan was not as prepared for an 
extreme event as our industry was. In fact, a Japanese 
government report, their report, noted that the equipment the 
NRC required, that is us, following September 11 might have 
made the difference at Fukushima. In addition, the NRC required 
our plants to add backup power and generators to coup with 
station blackouts starting in the 1980s.
    Does anyone disagree with that? Thank you very much.
    You heard my opening statement. I think I probably observed 
accurately that you four are the only ones who understood what 
I said because it is a bit complicated, but it is a history we 
have to look at because it is real.
    According to Project Aim, the 2020 Report, the NRC's 
current staffing level is 3,677 full-time equivalent employees, 
excluding the Inspector General's Office. Your fiscal 2016 
budget requests 3,691 full-time equivalent employees which is a 
slight increase.
    Chairman Burns, if Project Aim recommends shrinking to a 
work force of 3,400 why request an increase for 2016?
    Chairman Burns. I don't think we are requesting an increase 
in the number of staff for 2016. I think, Mr. Chairman, the 
difference between our 2015 and 2016 proposal is this. In 2015, 
the appropriated amount was smaller than our request for 2016, 
but in 2015, because we had a substantial carryover, the 
Congress allowed us--I think it is on the order of $38 million 
to $40 million in carryover.
    Our overall request for 2016, if you compare it to that 
appropriated amount and that carryover amount, is smaller for 
2016. We are looking at, I think, a reduction in 2016 of about 
140 full-time equivalent positions.
    Senator Inhofe. I notice you are glancing at this chart. 
You know what this chart is. Do you agree with it?
    Chairman Burns. Unfortunately, I can't. It is hard for me 
to read, my eyes aren't the best.
    Senator Inhofe. Staff, point out the surge that takes place 
about the fourth column over to the right. What year is that 
because I can't see that either--2002, is it? Yes. Anyway, I 
want you to look at that and we should have had that in front 
of you because I think this is accurate in terms of its 
content.
    I understand what you are saying. If we do find that it is 
excessive, I want you to reevaluate that.
    According to the NRC's annual attrition rate of 5 percent, 
this is what I understand it is, the NRC could reach the 
Project Aim recommended staff level in fiscal year 2017 if it 
began with the 2016 budget. I would ask the same thing of 
Chairman Burns, why would it take to 2020 to achieve that 
reduction?
    Chairman Burns. Senator, I think part of the answer is that 
in looking at Aim, they were looking out to 2020 in terms of 
where they thought a potential staffing level would be. I think 
we want to be careful because we want to be responsible in 
terms of what it is we think we need in order to meet our 
objectives.
    I would be hesitant to say just flat out that in the 2017 
timeframe or 2018, before that, that is where we ought to be. 
There is work we need to do. We need to bring the Fukushima 
improvements home. We have some new reactor licensing.
    Senator Inhofe. You are doing a lot of that now.
    Chairman Burns. Yes, we are doing that now but there is 
work that carries through 2016 to 2017 in a number of areas. 
Again, I think given what we understand now, that is where I 
think the line or the slope is we would have.
    Senator Inhofe. How about the other three of you? Do you 
think it is unreasonable for us to expect and to go back and 
have something at the level of 2000 if we are using that to 
measure the number, the workload, and number of employees in 
the budget? Do any of you disagree with that, that you ought to 
be able to do what we did with the same thing in 2000?
    Ms. Svinicki. I would just remark that the goal laid out 
for Project Aim was merely a staff estimate for a reduction. 
The Commission, itself, is right now reviewing the work that 
needs to be done and the staffing level. The Commission does 
not endorse that.
    It may be that it is too modest or too ambitious but we 
have not yet looked at the work scope to support the staffing 
but I think there is general acknowledgement that the staffing 
will be coming down.
    Senator Inhofe. OK.
    Yes.
    Mr. Ostendorff. Senator, I would just comment and add that 
I do believe taking a historical look at prior budget and 
staffing numbers does provide a perspective that should inform 
how we move forward.
    Senator Inhofe. My time has expired but if we do have a 
second round, I want to get into the IG report. I think you are 
familiar with that and I have some questions along that line.
    Senator Boxer.
    Senator Boxer. Thank you.
    I want to go back to the list of 12. The point is we were 
told by the former Chairman that a lot of these recommendations 
would be required to be implemented within 90 days of 
Fukushima. That is in the record.
    You don't have to agree with it. I am not asking about that 
but the fact is we don't have any required implementation by 
the Commission for anything until 2016. My question to all of 
you is, do you intend to extend that or are you going to stick 
with the ones where you say you will have 2016 action? Is there 
any intent to extend that period to the industry?
    Chairman Burns. Senator, when I came on as chairman, one of 
my priorities is to see these things home. What you have in 
terms of 2016 is the schedule for implementation that I believe 
the Commission, actually, it would have been when I was general 
counsel, adopted in terms of the implementation.
    Senator Boxer. Just answer the question, do you plan?
    Chairman Burns. I do not plan, based on what I know now in 
terms of the progress made, to do that. As I said, there are a 
few instances, to be sure we are clear and honest with each 
other.
    Senator Boxer. OK, fine. The answer is that you don't 
intend to.
    Chairman Burns. I don't intend to do that.
    Senator Boxer. Also, since you have taken no action on 
several of these, there were only 12, let us be clear, from the 
Commission. There were 12 recommendations. I am going to ask 
you to put in writing, all of you, I am going to follow up, why 
you have not acted on some of these and what your intentions 
are. We will get that letter to you.
    I want to home in on a shocking situation at home. I am 
asking all of you to comment on this. I will start with Ms. 
Svinicki.
    On September 10, PG&E submitted a seismic safety report on 
Diablo Canyon, which it was required to do, by the State of 
California and the NRC. That report found that the shoreline 
seismic fault was more than twice as long as previously 
believed. On September 10, they submitted this report.
    What we have found out, with some diligent work by my 
staff, is that the NRC's press office circulated internally a 
memo on August 24, 27 and 28, all containing talking points 
saying the NRC has reviewed the report and concluded Diablo 
Canyon was seismically safe.
    Let me say that again for the committee here. You do not 
get the report until September 10, actually, you got it on 
September 8, but in August, your communications people put out 
an internal memo stating that everything was cool and it was 
seismically safe when we know it is not true.
    I would like to ask each of you to respond to this. Did you 
know about this? Now that you know about this, will you 
investigate why this happened?
    Ms. Svinicki. I did not know about this and I believe this 
may already be under investigation.
    Senator Boxer. Yes.
    Mr. Ostendorff. I agree with Commissioner Svinicki's 
answer. I did not know about it.
    Senator Boxer. Do you know if it is under investigation, 
Mr. Burns?
    Chairman Burns. I do not. If this happened, this occurred 
actually before I was confirmed.
    Senator Boxer. I understand that, so this is the first you 
have heard, but Ms. Svinicki, since you said it is under 
investigation, who is investigating it?
    Ms. Svinicki. I believe it would be the Office of the 
Inspector General, but Senator, I am not entirely sure.
    Senator Boxer. My understanding is it is not under 
investigation and this has to be done. I am asking you, Mr. 
Chairman, if you will get back to me on this? This is 
appalling. It is about my people surviving if there is an 
earthquake right there. Will you look into this? Heads should 
roll on this. You do not writing talking points before you even 
get the document.
    Chairman Burns. I will look into it and get back to you.
    Senator Boxer. I need it in writing as well.
    This morning, I reintroduced my legislation to prevent 
exemptions from having to prepare emergency responses when 
there is decommissioning going on. We have examined this.
    NRC has never once rejected such a request even though the 
studies have found that the health consequences a spent fuel 
accident could be as bad as the consequences of a severe 
accident.
    I want to know from you whether you are now taking a look 
at these kinds of automatic exemptions for the plants. Are you 
taking another look at that?
    Chairman Burns. The Commission has directed initiation of a 
rulemaking on decommissioning which would look at the process 
for entering into decommissioning which would include a look at 
the exemption process in terms of trying to develop a more 
transparent and regulatory framework as we go forward.
    Senator Boxer. I hope that means you are not going to 
automatically grant these exemptions because I have to tell you 
something. If something happens to somebody and they are hurt 
in a terrible nuclear accident because of what leaked out of 
the plant, it does not matter to them if it happened before the 
decommissioning or after. We need to not just grant these 
exemptions.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    I have a chart to put up. This was compiled by the Nuclear 
Energy Institute and it represents all the scheduled 
initiatives that at the Commission. Mr. Chairman, I have raised 
concerns about the impacts of regulation before and I think 
this chart illustrates those concerns really well.
    It also shows all the scheduled regulatory initiatives at 
the NRC, including the progress of the post-Fukushima Tier 1 
recommendations about which Ranking Member Boxer expressed 
concern as well.
    We see a lot of new nuclear regulatory requirements, in 
addition to our expectation that plants are operated at the 
highest levels of safety every single day. This is an issue 
that the NRC has been considering since 2009 and one that the 
NRC staff agrees ``can potentially distract licensee or entity 
staff from executing other primary duties that ensure safety or 
security.''
    As you know, Senator Vitter and Congressman Upton asked the 
GAO to review NRC's cost estimating. The GAO found that NRC's 
cost estimating procedures ``do not adequately support the 
creation of reliable cost estimates.''
    The NRC appears to have dismissed the recommendation to use 
GAO's cost estimating guide in favor of OMB's, which I think is 
far less detailed.
    Considering the NRC's pattern of underestimating costs, 
sometimes by more than 1,000 percent, do you think it is wise 
to reject the GAO's guidance?
    Chairman Burns. My understanding, with respect to our views 
or the agency's views on the GAO's guidance, is that the 
particular GAO guidance was designed for basically, I think 
project construction and things like that, which are not quite 
a match for what we do.
    Having said that, this is an area in which the agency has 
focused attention. We are taking steps to try to make sure we 
are better with cost benefit analysis in the areas where it is 
applied. I think we have reached out to the industry here to 
make sure we have a better understanding of costs because I 
think this is an area in which we can do better.
    While I disagree in terms of the issue on the GAO, I think 
we are ready and I think we have been trying to take some steps 
that address some of the concerns.
    Senator Fischer. When you look at the new regulations, 
again, you tend to under estimate the cost. The Energy 
Institute would say that the actual cost, for example, to 
implement worker fatigue rules were two to five times your 
estimate. The new fire protection regulations were six times 
your estimate. The new security requirements were 19 times your 
estimate.
    How do you respond to that?
    Chairman Burns. Again, I think we have to make sure our 
processes--we have looked at the input we get from the industry 
on those questions and hopefully feed it back into the 
rulemaking process.
    This is an area where we have committed, both in the cost 
benefit area and the cumulative effects area, to do more work. 
We have engaged with the industry on that to move forward.
    Senator Fischer. Thank you.
    Commissioner Ostendorff, in recent hearings of the 
committee, I have asked questions about the use of qualitative 
factors in the decisionmaking of your commission. It is my 
understanding that in a vote on March 4, 2015, you disapproved 
of the expansion of the NRC staff's use of those qualitative 
factors beyond the current context in which these factors are 
considered.
    I would like you to describe, first, the current role that 
qualitative factors play in the staff's decisionmaking process. 
Second, I would like your views on the appropriate role for the 
use of qualitative factors going forward and perhaps 
limitations on them.
    Mr. Ostendorff. Thank you for the question, Senator 
Fischer.
    Very briefly, I think whenever there is an opportunity and 
the ability to use quantitative factors, we must use those 
factors. There are some areas where there is not an easily 
quantifiable approach to look at the problem. In those cases, 
and they are limited in number and scope, there are times when 
the Commission needs to be aware of how our staff might look at 
this non-quantitatively but through qualitative factors. At the 
end of the day, the decision on whether or not that approach 
would be based upon a qualitative approach rests with this 
Commission.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I would like to 
thank the panel as well.
    I want to follow up on Senator Fischer's line of 
questioning in terms of the use of qualitative factors.
    As she mentioned and you also mentioned to Mr. Ostendorff, 
the use of qualitative factors is limited historically only to 
those situations where the cost benefits cannot be amenable to 
quantification.
    The Commission recently issued direction to the staff 
regarding the use of qualitative factors in regulatory and 
backfit analysis stating, ``This approval does not authorize an 
expansion of the consideration of qualitative factors in 
regulatory analysis and backfit analysis.''
    Your direction also listed the principles that you expect 
the staff to follow: one, improving its methods for 
quantitative analysis; two, developing realistic cost 
estimates; three, limiting the use of, as you said, qualitative 
factors to certain areas; and improving transparency of 
decisionmaking in the use of qualitative factors.
    I guess I would ask the Chairman, are these instructions 
largely reinforcing the existing practice, in your mind?
    Chairman Burns. I think so. From that standpoint, again, I 
think the direction was the staff should continue under the 
direction it has had and that is the preference, if we have the 
ability to use quantitative information to make those 
judgments, that is what we ought to be doing.
    I would defer to my other colleagues if they want to add 
anything.
    Senator Capito. Who actually oversees the decision, making 
sure that the staff goes with the instructions that the 
quantitative instructions are largely in place over 
qualitative? Is that a decision you make?
    Chairman Burns. Certainly the Commission has a role in 
that, but the Commission having given direction, we would 
expect our Executive Director for Operations, our chief staff 
officer, to ensure the Commission's will is carried out through 
the staff.
    Mr. Ostendorff. I want to add to the Chairman's comment.
    Senator Capito. Yes.
    Mr. Ostendorff. When a paper comes to the Commission for a 
decision on a policy matter, we expect, and I think it has been 
the practice, that the regulatory approach, the regulatory 
analysis the staff is using is clearly presented to the 
Commission so we have the ability to see what their thinking 
is.
    Senator Capito. And how they arrived at the decisions?
    Mr. Ostendorff. Exactly.
    Senator Capito. That is a part.
    Mr. Ostendorff. A part of our process.
    Senator Capito. Part of the process.
    Whoever wants to answer this question, my question would be 
if qualitative analysis could be used to justify a regulatory 
change that failed a quantitative cost benefit analysis, could 
that open the door for the NRC to justify basically any 
regulatory change? Would you agree with that statement?
    Ms. Svinicki. I think one of the reasons that we 
deliberated and issued the instruction or direction on use of 
qualitative factors you have been quoting from was just that 
concern, that an unlimited, unfettered use of soft or 
qualitative factors could be used to obscure the true cost 
benefit of a new regulation and therefore, we had these 
elements of maybe constraining, continuing many practices of 
the use of qualitative factors but making more explicit the 
identification of how that was part of the analysis so that we 
can have clarity in our evaluation of any recommendations from 
our staff.
    It is, I think, in some ways, to be certain that we don't 
venture near those types of abuses.
    Senator Capito. Any other comments?
    Chairman Burns. I think Commissioner Svinicki submitted a 
good synopsis.
    Senator Capito. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Mr. Chairman, it is good to see you. Thanks for the work 
that you do.
    In Alaska, we don't have any nuclear facilities, so this is 
my first hearing with regard to the NRC. I always start the 
hearings by looking at the mission, what you do, the mandate 
from Congress and the fact that you are an independent agency.
    Mr. Chairman, would you like to comment, just from your 
perspective around the agency, what you think it means to be an 
independent Federal agency in Washington right now? I think 
sometimes people forget that word ``independent'' and what it 
means and how important it is.
    Chairman Burns. Thank you for the question. In my prior 
work at the OECD Nuclear Energy Agency that was often a 
question and debate, not a debate but discussion as well.
    I think to me, again, independent agencies were set up in a 
way to be bipartisan but in the sense that the expert judgment 
that an agency can bring to bear, that basically the agencies 
are created to bring to bear expert judgments in the areas of 
their competence. I think maybe that is the hallmark.
    There are probably other characteristics but certainly how 
they are structured in terms of, in our case, no more than 
three members can be from the same political party or 
registered from the same political party, and the openness in 
terms of meetings. Things like that, I think, enhance our 
independence.
    Senator Sullivan. With oversight from the Congress?
    Chairman Burns. With oversight from the Congress, 
absolutely.
    Senator Sullivan. With policy direction ultimately from the 
Congress in the form of legislation?
    Chairman Burns. Yes.
    Senator Sullivan. Not the White House or the Executive 
branch?
    Chairman Burns. No. That is another aspect. Our 
appointments are for terms and removal can only be--except the 
Chairman can be replaced on a day to day basis. Sometimes maybe 
that would be good from my standpoint but the idea is, again, 
commissioners basically serve that term unless removed for 
malfeasance.
    Senator Sullivan. I want to talk just a little bit about 
the budget. From 2004 to 2014, your budget increased by more 
than $400 million, 800 more staff and yet the NRC struggled to 
review 40 percent fewer licensing actions in 2014 compared to 
2004.
    In particular, as you know, 90 percent of the budget to the 
NRC comes from fees paid either for license fee specific work 
or annual fees billed to operating reactors. With the Office of 
New Reactors having less work, it appears--I would like you or 
any of the other commissioners to address this--and with the 
shutdown of two reactors, the remaining reactors are going to 
make up a shortfall in terms of an additional $100 million paid 
this year. Is that correct?
    How will the Commission avoid forcing current power 
reactors to pick up additional shortfalls in new reactor 
revenue in this year's budget and in the next if there is going 
to be additional closure of facilities?
    To get to a broader point, do you think that is a 
sustainable model because it does seem that the annual fees 
required of the existing operating fleet become more and more 
and more. It seems to me that is a pretty significant burden 
and a model that might not be sustainable.
    Chairman Burns. I think the model is sustainable in terms 
of looking at the size of the current fleet. That is plus or 
minus some when I say that. At one point during the agency's 
history, we were not a fee-based agency, I think up through the 
mid-1980s.
    Again, it is true and that is how the fee provisions work. 
It depends on the number of operating reactors. That is 
currently 99. The expectation, depending on the final outcome 
of the reviews of Watts Bar II, I think the estimate is it 
would go into operation later this year. That would be back to 
100. There is, I agree, some variability there.
    The overall, given our request, is that the fees will go 
down, are estimated to go down not only for fiscal 2015 but if 
you look at this budget proposal, in 2016 as well.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you, 
Ranking Member Boxer.
    I am grateful that the NRC Commissioners are here to 
testify about the work of the Nuclear Regulatory Commission.
    The safety of our nuclear power sector is of great 
importance to me and New Yorkers. Our State has four nuclear 
power plants. I am very focused on making sure that the NRC can 
provide the strong and consistent oversight to ensure those 
plants operate safely and that the lessons learned from 
previous tragedies are implemented.
    We discussed this in past but Super Storm Sandy wreaked 
havoc throughout the New York City region, including 
Westchester. One of the challenges during Super Storm Sandy 
beyond the 10-foot surges was the amount of downed power lines 
and trees, particularly throughout the Westchester region and 
the Hudson Valley coming out of New York City.
    I want a fuller discussion of an evacuation plan if you 
have the perfect storm, if you have a nuclear incident. I don't 
think you have ever submitted an evacuation plan beyond 10 
miles. The reality is that Indian Point has a very close 
proximity to 8 million people.
    Could you speak to whether you have assessed a broader 
evacuation plan and if not, why not and if not, will you please 
submit it in writing? Anyone can answer.
    Chairman Burns. I will start and my colleagues may want to 
add something.
    Again, the emergency planning basis that the agency 
adopted, the basic rulemaking provisions, address detailed 
planning, not just evacuation but other types of potential 
responses within a 10-mile radius and then going out to 50 
miles for what are called ingestion pathway zones.
    That has generally been considered by our staff, our 
information and from working with other Federal partners to be 
a consistent and also adequate basis for planning.
    I think long term, we have always been open to potentially 
looking at that issue. I think parts of the Tier 3 Fukushima 
review may address it and see if there is anything else we can 
learn to address that. I will leave it there if any of my 
colleagues want to add something.
    Mr. Ostendorff. I would just add, Senator, that NRC does 
this in concert with FEMA and FEMA has the broader national 
response authority to ensure coherency and commonality of 
approaches. I wanted to assure you that it is not just the NRC 
looking at the evacuation plans; it is also FEMA through their 
broad national responsibilities.
    Senator Gillibrand. How many other nuclear plants around 
the Nation are within a 50-mile radius of a population of 8 
million?
    Mr. Ostendorff. Senator, I think it is very clear that 
Indian Point--two of my three adult kids live within that 
radius.
    Senator Gillibrand. I just think it is inconsistent with 
other evacuation plans and doesn't have the same needs because 
it happens to be positioned far differently than the typical 
nuclear power plant.
    For example, the other power plants in New York State are 
in rural areas where you have significant ability to evacuate 
anyone within a 50-mile radius. You do not have that in New 
York City. You have an enormous population with very few 
avenues to evacuate.
    I think it is a really complex problem that needs unique 
attention. I do not think saying it is consistent with the rest 
of the Country is correct because there is no other fact 
pattern that is similar to where Indian Point is.
    I would like a unique approach to absolutely be planned for 
and analyzed to know what the limitations are and to think it 
through.
    Mr. Ostendorff. Senator, with that question for the record, 
may we have the chance to get back to you in writing?
    Senator Gillibrand. I would really appreciate that because 
I have raised it several times. I would like you to do a 
specific, specialized plan for Indian Point evacuation beyond 
the 10-mile radius that you have done because Super Storm Sandy 
truly is a wake-up call. With global climate change as it is, 
rising sea levels, rising sea temperatures, more intense storms 
have higher storm surges, have more rain, flooding is 
absolutely possible.
    The location of Indian Point geographically is problematic 
because it is on the Hudson Valley. It is poised just north of 
New York City. It is very close to coastal areas. We also have 
seismic activity in that region. You do have real geographical 
issues beyond the massive population base.
    I would like a thoughtful analysis about what you would do 
in the worst case scenario given Fukushima. That was the worst 
case scenario, one that nobody had planned for, no one could 
have imagined, and it was, as a consequence, deadly.
    Please do that analysis and provide it to me.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Chairman Burns, thank you and I appreciate your being here 
today.
    I have some concerns about the NRC's proposed changes to 
the fee recovery rule. I want to follow up a bit what Senator 
Sullivan talked about.
    This is the rule where the NRC charges fees to the 
licensees to recover most of its budgetary authority. A quote 
from the Federal Register back in 2005 talks about the comments 
objecting to the large increase in the annual fees for uranium 
recovery licensees. The commenters stated, ``There continues to 
be a lack of reasonable relationship between the cost to 
uranium recovery licensees of NRC's regulatory program and the 
benefit derived from these services.''
    Additionally, the commenters stated, ``The NRC needs to 
address the issue of decreasing numbers of uranium recovery 
licenses. Specifically as more States become agreement States 
and/or additional sites are decommissioned, the number of NRC-
regulated sites continues to decline leaving fewer licensees to 
pay a larger share of the NRC's regulatory cost.'' That was 10 
years ago. It continues.
    It seems you are overseeing about half the operations 
facilities that you did in 2005, and reviewing less than half 
the number of applications reviewed as recently as 2008. NRC's 
press release on the proposed rule on March 23, a couple weeks 
ago, stated ``Most uranium recovery licensees would see an 
increase in their fees.''
    With each State that becomes an agreement State, the 
workload dropped for the NRC but the fees go up anyway. It 
could take up to 5 years for Wyoming to become an agreement 
State, a process you have noted in your written testimony.
    My State has just started. In the meantime, our uranium 
operators are seeing their fees go up, even though the workload 
is going down. I had a letter 2 months ago talking about an 
invoice they recently received. The invoice was roughly four 
times the amount their staff had accrued based on their 
estimate of the level of effort the NRC staff is expending on 
or behalf of the biweekly validation reports.
    You can imagine my surprise and concern with this variance 
but surprise and concern have become routine with the quarterly 
NRC invoices emblematic of a lack of fiscal accountability at 
NRC.
    Given the workload is down, how do you continue to explain 
the dramatic increases in fees? Is this practice sustainable?
    Chairman Burns. Senator, I have not had a chance to see 
some of your details but again, this goes to the comments I 
made in the discussion with Senator Sullivan. In some areas 
where you have fewer licensees, that does have an impact on the 
fees.
    I think what we can do and try to commit to do, as part of 
this, is say the fee rule is out for comment and our 
deliberation and determination assure that we have done our 
best in terms of equitably reaching a decision on the final 
rule, taking onboard the expressed concerns. That is what I can 
tell you I intend to do.
    Senator Barrasso. I appreciate that.
    Regarding the time it takes for the NRC to provide services 
to licensees, how long do you believe it should take the NRC to 
review an application for a new uranium recovery facility? Do 
you know how long it actually takes now?
    Chairman Burns. I am not sure I can give sort of an ideal 
time. I haven't had a chance to look at that. I had a meeting 
with Senator Fischer yesterday and I know her concern in terms 
of the length of time it took for renewal of the Crow Butte 
license.
    Quite honestly, in the uranium recovery area, some of the 
complications are the ancillary reviews that have to be done. I 
think this is an area I am willing to look at and see we are 
trying to do better.
    Senator Barrasso. My final question is, I am concerned that 
the EPA is currently taking jurisdiction away from the NRC with 
its proposed and costly Part 192 rulemaking that would 
essentially require uranium producers to monitor water quality 
for up to 30 years after the mine stops producing uranium.
    I wondered if your Office of General Counsel has evaluated 
the jurisdictional aspects of this proposed EPA Part 192 
rulemaking and what was that evaluation?
    Chairman Burns. I would have to discuss that with the 
General Counsel. I would be happy to get back to you on that.
    I do know from past experience, there is some 
jurisdictional overlap with the EPA. Unfortunately, I cannot 
tell you today with respect to the new rule.
    Senator Barrasso. I would appreciate it if you would have 
this evaluated and report the findings back to this committee.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    In May 2011, I released a report, Fukushima Fallout. This 
report pointed out the problems with American nuclear power 
plants in the wake of what we have learned about the Fukushima 
accident.
    It talked about how we rely upon outdated seismic 
information and how our plants might be unprotected. It said 
that power outages in our Country could lead to Fukushima-style 
meltdowns or accidents right here in the United States of 
America.
    In July 2011, 2 months after my report came out, the NRC's 
expert task force released 12 recommendations that all 
addressed weaknesses here in this Country, including the ones 
that I raised in my report.
    As we sit here today, not one single new permitted, seismic 
safety upgrade has been required to be put in place. Not a 
single new measure to prevent floods from causing a meltdown to 
occur has been put in place. Not a single new emergency 
response procedure has been put in place. That is unacceptable.
    The problems were identified in my report in 2011. The 
advisory committee, the NRC's own expert panel, identified 
these same problems. It is continuingly impossible for me to 
understand why the NRC does not act on this area, why we 
haven't implemented the lessons that we should have already 
learned from the Fukushima accident.
    It is time for the United States to act as though we 
understand that nuclear power here has to learn from the 
nuclear power mistakes of other countries. I do not think we 
have done that up until this moment.
    On the issue of cyber security, after the terrorist attacks 
of 9/11, the NRC issued cyber security orders for nuclear 
reactors which later turned into even more robust regulations 
but the NRC did not require the same stringent cyber security 
measures for other nuclear facilities like centrifuge 
facilities that enrich uranium.
    Now we know that the United States and Israel used the 
Stuxnet computer virus to damage Iran's centrifuges and slow 
down its nuclear weapons program. I am sure that is part of the 
reason why the NRC staff recommended that the NRC quickly issue 
orders to upgrade the cyber security requirements at American 
enrichment facilities and then do a rulemaking just like the 
NRC did for its reactors. What is mystifying though is why the 
NRC voted three to one to reject the staff's recommendations.
    Commissioner Baran, you were the only one to support the 
NRC staff's recommendation. Can you tell us why?
    Commissioner Baran. Sure, Senator. The NRC staff spent 
years looking at this issue. They did site visits at our fuel 
cycle facilities. They talked with licensees for a period of 2 
or 3 years largely trying to reach agreement on voluntary 
actions that the fuel cycle facilities would take to establish 
basic cyber security standards.
    After all that effort, their conclusion was that there were 
significant vulnerabilities that needed to be addressed in 
order to protect the health and safety. I agreed with the staff 
that NRC should issue orders and then follow with a rulemaking 
so that we do not have years where we are waiting to have basic 
cyber security protections in place that are enforceable.
    Senator Markey. I agree with you, Commissioner Baran.
    NRC is still refusing to comply with my document request 
that could be related to the indictment of five members of the 
Chinese military on charges of hacking into U.S. company 
systems in 2010 and 2011 and stealing nuclear reactor trade 
secrets from Westinghouse.
    At the very same time these thefts occurred, Westinghouse 
was hosting dozens of unescorted Chinese personnel at U.S. 
nuclear reactors for months. The NRC has refused to provide me 
with any documents I have requested even though Congress is 
about to be asked to approve a new nuclear cooperation 
agreement with China.
    Anonymous sources have sent me some materials. For example, 
in November 2010, NRC's Security Office recommended that 
additional information about each Chinese national be provided 
in advance of the visits so they could be checked against other 
security databases but the NRC ultimately rejected this 
recommendation and they did end up gaining unescorted access to 
nuclear reactors in this Country according to documents that 
were sent to me.
    The law I wrote requires the NRC to provide non-public 
documents to Congress. It is vitally important that Congress be 
fully informed about the potential risk of Chinese cyber 
espionage before it approves a new nuclear cooperation 
agreement with China.
    Do each of you agree to follow the law and fully respond to 
all of my outstanding document requests, yes or no? Mr. 
Chairman.
    Chairman Burns. Mr. Markey, the prior Commission, when I 
understand these requests were made, we indicated we would meet 
with your staff and discuss the matter with respect to the 
documents and the issues with respect to it. That offer still 
stands.
    Senator Markey. Yes or no, will you provide the documents?
    Chairman Burns. We offered to meet with your staff to 
discuss the matter. That is my answer.
    Senator Markey. No one has offered that. No one has 
provided that.
    Senator Inhofe. Senator Markey, let me interrupt for just a 
moment. We are going to have a second or third 3-minute round. 
Do you want to take yours right now? You are already 2 minutes 
into it. I would be glad to give you that time.
    Senator Markey. I thank you, Mr. Chairman, very much. Yes, 
I will just take that time right now.
    The other commissioners, do you believe that you should 
follow the law and fully respond to all of my outstanding 
document requests? Commissioner Baran.
    Commissioner Baran. Obviously, we should follow the law. My 
view is when NRC gets a document request from a member of one 
of our congressional oversight committees, we should review the 
documents that would be responsive and we should work with you 
or whoever the requester is to provide as much information as 
we can.
    Senator Markey. The other two commissioners, do you agree?
    Mr. Ostendorff. Senator Markey, I agree with Chairman 
Burns' response.
    Ms. Svinicki. I agree with Chairman Burns' response.
    Senator Markey. OK. Let me just tell you this. We are about 
to be asked as a Congress to approve a new nuclear cooperation 
agreement with China. This committee has a right to have access 
to this information. We are the committee of jurisdiction 
overseeing the Nuclear Regulatory Commission.
    There is a huge issue with regard to China and the security 
of our nuclear secrets that is in question. There are 
outstanding questions going to the Nuclear Regulatory 
Commission that have not been responded to.
    I believe it is irresponsible for that information not to 
be provided to this committee so that we can evaluate before we 
are asked to vote on a new Chinese nuclear agreement.
    I thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Markey.
    Senator Carper, you are recognized for a 5-minute round and 
you have a remaining 3 minute-round.
    Senator Carper. Thank you.
    Hello, everyone. It is nice to see all of you and welcome a 
bunch of you back and to see others for the first time.
    In the last decade, I think we have seen a huge swing in 
the marketplace, as you know, for nuclear energy. I think in 
2008, we had 26 applications for building plants and now we are 
trying to build four.
    Both of you, Chairman Burns and Ms. Svinicki, I think were 
at the NRC in 2008 during that time. As you know, there was 
very high employee morale. In fact, you topped the charts year 
after year, the NRC, best and brightest people wanted to come 
to work at the NRC. We also saw a jump in interest in the 
career engineering programs at our colleges and universities 
across the Country.
    Things are different today. How do we ensure that the best 
and brightest still want to come to work at the Nuclear 
Regulatory Commission and stay there? How can we ensure that 
the U.S. still produces the best nuclear engineers in the 
world? How does our budget, the President's budget presented to 
us address those issues?
    Chairman Burns. Thank you for the question.
    It is probably easier in an environment where there is a 
lot of growth to really pump up morale. But my message to 
employees is, there is a lot of important work that this agency 
does. It is not only in regulation of the operating reactor 
fleet. There is new reactor work. It is doing things like 
learning the lessons from Fukushima and implementing those 
requirements.
    Also, in the area of medical, we had a great meeting 
earlier this week from our advisory committee on medical 
isotopes. There is important work there understanding the 
beneficial uses of radioactive material and ensuring those uses 
are safe. Communicating that message, for us at the top, I 
think doing that helps a lot.
    Ms. Svinicki. I appreciate the question as well.
    My understanding from our human resource specialists is 
that our recruitment is still very vibrant, that young people 
entering the field are still very interested in applying for 
positions at the Nuclear Regulatory Commission.
    I think they are motivated and excited by the mission of 
the agency and the opportunity to do exciting work.
    Although you didn't ask, as I reflect, this December I will 
have been a Federal employee for 25 years. I think I have more 
concerns that young people will perhaps not be interested in 
Federal Government, civil service or public service positions.
    I know to a person, all members of our Commission go out 
and meet with young people and with students to try to tell 
them that careers in government and public service are still 
exciting and gratifying.
    I do sense from some of the young people that they take a 
lot of the negative perception of Washington or public service. 
I personally think a lot of us advocate for the excitement of 
these careers.
    Senator Carper. Good. One of the greatest sources of joy I 
think in the lives of most people is if what they are doing in 
life is worthwhile and the idea that we have an obligation to 
serve and if we do, we find that we are making the person being 
served feel better and it sort of comes around to make us feel 
a lot better about our own lives as well.
    Thank you all for being servants. For those from Delaware 
who are listening, thank you for letting me serve you.
    Chairman Burns, you have a fairly long history at the NRC, 
as we know. I think you mentioned in your testimony some of the 
excitement that was going on a few years ago in terms of a lot 
of activity and a lot of projects on the horizon.
    The NRC has to be flexible and the budget has to be 
flexible when the demand is up and a lot going on and maybe 
less when there is only four projects to be overseen, plus 
another 100 nuclear power plants.
    How does this budget allow the NRC to be flexible to meet 
unexpected challenges? What challenges do you believe will be 
the toughest for the NRC to tackle during your chairmanship?
    Chairman Burns. I would mention three areas. One, it allows 
us to bring what we see as significant Fukushima enhancements 
home. It gets us there. It gets us, if not to the very end, 
very close to the end path. I think that is important.
    The second thing is it helps us work off things like the 
licensing backlog that happened due to our focus on Fukushima.
    I think the third thing is that we do position ourselves 
for the potential for either small modular reactors or advanced 
reactors. There is money in there to help position ourselves 
for doing it.
    All that said, it continues our vital inspection and 
oversight mission which is key to maintaining the safety of 
both reactor and materials use in the U.S.
    Senator Carper. Thank you.
    Mr. Chairman, thank you for letting me jump in like this. 
We have the Commissioner of the IRS before our Homeland 
Security Committee today on April 15, very timely. I have been 
trying to adjust the hearing to come here and spend some time 
with you. It is great to see you all.
    Thank you so much.
    Senator Inhofe. In light of that, thank you for showing up.
    Senator Carper. You bet.
    Senator Inhofe. Let me make a couple comments. First of 
all, as you can tell, you knew this in advance, we have 
different approaches and ideas of where in the mix nuclear 
should be. You know that I am a very, very strong proponent and 
feel that we need to catch up with some of the other countries 
that are able to provide a lot more energy from this source. I 
am going to be working in that direction.
    There was a report by the IG on the management directive 
for budget formulation that had not been amended since 1990 and 
was ``thoroughly out of date.'' In particular, the IG observed 
that ``lack of written policies and procedures that clarify the 
roles and responsibilities of key participants in the budget 
formulation process result in inefficiencies, particularly work 
flow disruption, confusion and rework.''
    Commissioner Svinicki, I know that you have worked to 
develop an update to that management directive I think going 
all the way back to 2008. I would like to know where we are on 
that and what your feeling is on going forward with something 
like that?
    Ms. Svinicki. Thank you, Chairman Inhofe.
    This is Management Directive 4.7 within the Nuclear 
Regulatory Commission and it is a long, outstanding Inspector 
General finding that this management directive is not 
reflective of current processes that does lead to 
inefficiencies. Back in 2008, then-Chairman Klein asked me to 
convene a group of staff to look at updating that directive.
    I offer no excuse for the fact that in 2015, that directive 
is still not updated. As often happens in large organizations, 
we continue to make tweaks and changes to the process. When we 
sat down to put pen to paper and update the directive for the 
process, we say we have some additional changes on the horizon 
so we fall victim to this notion of putting off the update 
until all the changes are in place.
    Our new Chief Financial Officer has taken this on as 
something that has been outstanding for too long. I have met 
with her on it and I know that the Office of Chief Financial 
Officer is very committed to updating this directive.
    Senator Inhofe. Do you have any idea about how long that 
will take? The criticism the IG had way back in 2005--you have 
been working on this now for a long period of time--do you have 
any idea when we might be able to come forward with something 
that we can start using?
    Ms. Svinicki. I am not certain of the current estimate. 
Could I provide that for the record?
    Senator Inhofe. Let us do that. How about you, Mr. 
Chairman?
    Chairman Burns. Our CFO passed me a note that basically 
says the document is complete. They are awaiting completion of 
the related strategic plan management directive and expect to 
submit it to the Commission soon.
    Senator Inhofe. For the record, all four of you are in 
support of the change that will be coming forward. That is 
fine.
    Senator Boxer, we agreed we would have an additional 3 
minutes. You are recognized.
    Senator Boxer. Thank you.
    Do you remember, each of you, that you answered the 
following question with a yes in a very important way? This is 
the question I am going to ask if each of you remembers you 
said yes to it.
    Do you agree to ensure that testimony, briefings, 
documents, electronic and other forms of communication are 
provided to this committee and its staff and other appropriate 
committees in a timely manner? Do you remember saying yes to 
that?
    Ms. Svinicki. Yes, I do.
    Senator Boxer. Do you, sir?
    Mr. Ostendorff. Yes, I do.
    Senator Boxer. Do you, sir?
    Chairman Burns. Yes.
    Senator Boxer. Do you, sir?
    Mr. Baran. Yes.
    Senator Boxer. Well, it is not happening and it is awful. 
You say yes and then you don't come across with the materials. 
People are waiting for these materials. Senator Markey talked 
about his request. You said you would sit down and talk to him.
    Here is the situation with me. The NRC is still withholding 
two categories of documents related to the San Onofre 
investigation. This investigation is important because it has 
implications for other reactors and the way the NRC enforces 
its safety requirements.
    In fact, it turns out that when Diablo Canyon replaced its 
steam generators, it also violated the very same safety 
regulations that were violated at San Onofre. Yet, NRC has not 
done anything meaningful to learn from its repeated failures to 
detect noncompliance with its own regulations.
    I don't have any confidence that it will and now there is 
another issue Senator Inhofe raised about when you are getting 
things done. What is this? You put it in a folder to do 
sometime? This makes no sense. This is very serious to me 
because you all looked me in the eye, as you should now, and 
said that you would turn over this documentation.
    Ms. Svinicki, do you remember saying yes? You do. Are you 
willing to turn over this document which renown constitutional 
scholar Mort Rosenberg said ``NRC's reason for withholding the 
documents demonstrates a profound misunderstanding of Congress' 
investigatory power and that they misstate court decisions and 
ignore case law.''
    Would you be willing to turn over these documents that I 
have asked for?
    Ms. Svinicki. Senator Boxer, I have supported our offer to 
engage with you and your staff on providing information and 
briefings.
    Senator Boxer. I am asking for documents. That is not what 
you said yes to. You are considered as being sworn when you 
said that, you know, even if I didn't say do you swear. You are 
sworn.
    I am asking you, will you turn over the documents, yes or 
no?
    Ms. Svinicki. Senator, I have supported our previous 
response.
    Senator Boxer. OK. That is a no.
    Mr. Ostendorff, yes or no, the documents I am requesting?
    Mr. Ostendorff. Senator Boxer, we have responded on three 
different occasions in writing based on Commission 
correspondence to request to meet with your staff and be with 
you to discuss in detail some of these.
    Senator Boxer. I have asked you for documents. It doesn't 
say do you agree to ensure that you will sit down with a 
Senator when she asks you for documents. The answer is no.
    What about you, Mr. Burns?
    Chairman Burns. Senator, the request on this matter came up 
before I was here.
    Senator Boxer. Before your time.
    Chairman Burns. As I said and I think we have said before, 
I am committed to work with the committee. In terms of your 
immediate document request, with all due respect--I said this 
before in my confirmation hearing--I think there are areas--
this may be one where there are issues with respect to 
provision in certain types of areas.
    Senator Boxer. There are words, words, words, words.
    Chairman Burns. The words are, I will commit to work with 
your staff to see what we can do to make the accommodation to 
the committee.
    Senator Boxer. That is not what you agreed to. You agreed 
to ensure that testimony, briefings, documents and electronic 
and other forms of communication are provided to this 
committee, all members and its staff and other appropriate 
committees.
    I am glad you want to sit down. Great, we will sit. I will 
sit with all of you. I want the documents.
    What about you? Do you have the same answer, that you will 
sit down with us or are you going to turn over the documents?
    Mr. Baran. The Commission, as a body, would have to decide 
to do that. My view, which I explained in my confirmation 
hearing and the last time I was here, is that our default under 
our internal Commission procedures should be that when a 
Ranking Member or a Chairman of one of our oversight committees 
requests documents, we should do everything we can to be 
responsive.
    If there are documents that are particularly sensitive, we 
need to work with you all and make sure we provide them as soon 
as possible.
    Senator Boxer. Let me say for the record, I know my time 
has expired and I am so very grateful to you, this is not a 
partisan matter. We take our roles seriously. It does not say 
we will--each of you said you would turn over documents. You 
didn't caveat it. You didn't say, well, it depends on the 
document and I will sit down with you.
    You are in violation of what I consider to be a sacred 
commitment. I know, because the law says, when you answered 
this question, it is as if you were under oath. Do any of you 
want to change the response you gave and just give me a yes.
    OK. Then I have to say this entire group of you 
commissioners, are not fulfilling an oath that you made. It is 
very disturbing because we have a job to do, whether it is a 
budgetary job or a safety job. All of your talk here is just 
that.
    I am asking for documents. Yes, we will have you sit down 
with my counsel and you. We will see where we go but this is 
distressing.
    Thank you.
    Senator Inhofe. Thank you, Senator Boxer.
    Since you went over, I will only take a few moments. I 
would ask if you would expand a little further. If you remember 
my opening questions to you, I observed getting back to 
Fukushima, two things. One was that we have responded in way 
and a number of documents have come forth and there have been 
requests.
    The other one I think that is not talked about enough is 
the fact that Japan was not in the same situation that we were. 
When I said they were not as prepared for the extreme event as 
our industry was, in fact the Japanese government report, their 
report, said the equipment the NRC required--talking about our 
NRC--following September 11 might have made the difference at 
Fukushima. That is huge. That is them saying this.
    You guys need to be talking about this more because you get 
a lot of criticism and I think it is unjustified. I think this 
is pretty good when their report implies if they had done it 
the way our practices are, that may not have happened. That is 
very significant.
    Do you guys have any response to that? Is there any reason 
not to be talking about that? I think it is very important.
    Chairman Burns. I might offer this, Mr. Chairman. As I 
recall when we received the Near Term Task Force report, the 
Commission did, in 2011, one of the things it noted was the 
benefits of what we call the B5B improvements, the positioning 
of equipment that was done after 9/11 which gave us a 
significant benefit in terms of safety.
    Some of the things we did after that, as I understand, 
there were inspections done to ensure that equipment was 
placed. What the industry has done in terms of these regional 
support centers has enhanced those things.
    I think you are right. I think particularly on that issue, 
what this agency had done and what the industry had done after 
9/11 put it in a good place in terms of the overall safety of 
plants as we look holistically at the lessons learned from 
Fukushima. My colleagues might have some thoughts also.
    Senator Inhofe. Do you have any comments to make about 
that? The impression I get from a lot of people is we all 
started at the same place and we did not. Any comments?
    Mr. Ostendorff. Commissioner Svinicki and I were the two 
commissioners here after Fukushima. We made a conscious 
decision by a unanimous Commission vote, five to zero, to not 
require any U.S. nuclear power plant to shut down because of 
safety concerns. We did not have those safety concerns.
    At the same time, we believed it was appropriate to study 
and look at where we could make some enhancements. We have done 
just that.
    Our comment with respect to seismic and flooding concerns, 
I think that was on your part, Senator Inhofe, with respect to 
the Japan situation, there has been significant work done in 
this Country in response to the requirement we put down 3 years 
ago to tell each licensee to submit their flooding and seismic 
reevaluations at NRC.
    That work has been largely completed. Some of it is still 
under way but there has been a lot of progress in that 
particular area.
    Senator Inhofe. That is good. That is specific and that 
needs to be said.
    How about you, Ms. Svinicki?
    Ms. Svinicki. The equipment that was put in place after the 
attacks of September 11 made all U.S. nuclear plants inherently 
more able to respond to extreme events. It was instituted, of 
course, for a terrorist attack but that same equipment allows a 
facility to mitigate against an extreme natural disaster.
    I think the Japanese report you quoted is acknowledging 
that U.S. facilities had been through the 9/11 attacks and the 
equipment provided that capability at U.S. plants.
    Senator Inhofe. That needs to be called to the attention of 
the American people, people who are closely watching this.
    Anything else, Senator Boxer?
    Senator Boxer. I just want to thank you, Mr. Chairman, very 
much for this hearing and for continuing the oversight.
    I would say I hope to God you are right, that we are much 
safer, but I will say if you go back to the Japanese statements 
before this, they were just like yours--we are so safe, we are 
so safe. Just because we think something, the Japanese really 
thought they were safe. They are known for their technology and 
precision. I think we need to move forward.
    Thank you for your leadership.
    Senator Inhofe. You bet.
    I think it would be appropriate to ask unanimous consent 
the Japanese government report be added to the record in this 
proceeding today.
    [The referenced information follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Inhofe. I thank all of you for your service and for 
being here. We are looking forward to working in an aggressive 
way to enhance nuclear power in America.
    Thank you very much.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Thank you, Chairman Inhofe, for convening this hearing on 
the Nuclear Regulatory Commission's (NRC's) fiscal year 2016 
budget. I'd like to welcome back the NRC commissioners to the 
committee and welcome Chairman Burns to his first hearing 
before us as chairman of the NRC.
    For this country to meet its climate and clean air goals, 
we must have nuclear in the energy mix. And in order to do 
that, we must ensure we have a safe nuclear industry here at 
home and around the world.
    Fortunately, the NRC is considered the gold standard when 
it comes to nuclear safety regulatory agencies. As a result, we 
have some of the safest nuclear plants in the world. However, 
with nuclear safety we can never rest on our laurels. Science 
and technology are constantly evolving and, in response, the 
NRC must adapt to ensure the public continues to be protected. 
I believe the NRC is up to the challenge.
    Today we have the opportunity to hear how the NRC is using 
its budget to update our nuclear safety regulations to ensure 
accidents like Fukushima don't happen on American soil and 
address the many other challenges faced by the commission on a 
day to day basis. I look forward to today's dialog with the 
commission and my colleagues.

            Statement of Hon. Bernard Sanders, U.S. Senator 
                       from the State of Vermont

    There are very serious concerns about nuclear power: 
concerns with the safety aspects, and concerns about how the 
nuclear industry's reliance on Federal subsidies hides the true 
costs of nuclear power. There are also very serious concerns 
about a potential disaster on the scale of Fukushima, which 
would not only cost taxpayers potentially billions of dollars 
but also do untold damage to our economy and infrastructure.
    This oversight hearing will cover a wide range of very 
important issues, but I would like to focus on one specific 
issue, and that is the need to provide a strong role for State 
in the decommissioning process when a nuclear plant shuts down.
    Currently, the existing rules involve only the NRC and 
companies who license nuclear plants to negotiate a 
decommissioning process. As of now, no State with a plant that 
is set to be decommissioned has a role in that process. States 
are merely observers in the process--they can hold public 
meetings, they can provide input on what is important to the 
communities that will be affected, but at the end of the day 
the company and the NRC work out the agreement. On the face of 
it, that just doesn't make sense. The people of the State, 
whether it's my State of Vermont or any other State with a 
plant being decommissioned--should have the right to have a 
place at the table.
    The Vermont Yankee nuclear plant began the decommissioning 
process last December. I have very serious concerns about the 
way Entergy plans to carry out the decommissioning of Vermont 
Yankee, including worries about Entergy's limited efforts to 
address radioactivity levels at the plant, and worries about 
Entergy's ability to finance all of the work that must be done 
in the decommissioning process. And on Entergy's timeline, 
decommissioning will take more than 60 years to complete. 
Imagine having a hulking mass of radioactivity in Southern 
Vermont deteriorating for 60 years. Nobody I know in Vermont 
wants that to happen.
    Now, the State of Vermont, which will have to deal with the 
consequences of the decommissioning process, was shut out from 
giving any input before Entergy submitted its decommissioning 
plan to the NRC, so we now have a plan that the State of 
Vermont and surrounding communities take serious issue with, 
but that was accepted by the NRC without any sort of official 
decisionmaking process.
    Because the NRC's rules on decommissioning provide no 
meaningful role to States in crafting the decommissioning plan, 
Vermonters have been left outside looking in as the NRC and 
Entergy make key decisions that affect our State.
    The fact that licensees like Entergy could adopt a 
decommissioning plan that ignores the interests and needs of 
Vermonters and leaves the State with no recourse is 
fundamentally unfair and unreasonable.
    This policy doesn't just affect Vermonters. Right now, 
there are nuclear plants being decommissioned across the 
country--in California, Florida, New York, Wisconsin, 
Pennsylvania, and Ohio. All of these States have a serious 
stake in making sure that these plants are decommissioned 
safely and responsibly, and their interests should be reflected 
in the decommissioning plan.
    There are very serious economic impacts to the surrounding 
communities when a plant closes--job losses and a decrease in 
the tax base. There are likewise the environmental impacts to 
be considered. Given how significantly these communities are 
affected during the decommissioning process, States should have 
a seat at the table when the NRC and the companies are drafting 
plans to decommission these plants.
    My bill, which is cosponsored by Senators Boxer and Markey, 
addresses this very serious flaw in the decommissioning process 
by requiring the NRC to review decommissioning plans before 
they are finalized, and to also provide the opportunity for 
States to provide feedback and shape the plans before they are 
accepted.
    By doing this, my bill gives States and surrounding 
communities a voice in the decommissioning process and a way to 
hold licensees accountable if they do not stick to that plan.
    This clearly is not a partisan issue, and is not even a 
rural or urban issue. It is a simple question of whether the 
people in these States get a seat at the table.
    I look forward to working with Senators Boxer and Markey on 
legislation to provide increased safety and more accountability 
during the decommissioning process.

                                 [all]
</pre></body></html>
